                             Office of the Inspector General
                    Corporation for National and Community Service



                                      Audit of
                  Corporation for National and Community Sewice
                         Grant Numbers 340A167101 & 02;
                        339A041116 & 17; 336A015117 & 18
                  With the Health Association of Niagra County, Inc.

                           OIG Audit Report Number 00-05
                                   July 30,1999




                                           Prepared by:
                                Leonard G . Birnbaum and Company
                                   Certified Public Accountants
                                      6285 Franconia Road
                                   Alexandria, Virginia 223 10

                                   Under Department of State OIG
                              Contract # S-OPRAQ-99-D-0020-CNS-02



This report was issued to Corporation management on December 6,1999. Under the laws
and regulations governing audit follow up, the Corporation must make final management
decisions on the report's findings and recommendations no later than June 3,2000, and
complete its corrective actions by December 6,2000. Consequently, the reported findings
do not necessarily represent the final resolution of the issues presented.
                              Office of the Inspector General                               CORPORATION
                      Corporation for National and Community Service                        FOR NATIONAL


                 Audit of Corporation for National and Community Service
           Grant Numbers 340A167/01& 02; 339A041116 & 17; 336A015117 & 18
                    With the Health Association of Niagra County, Inc.
                           (OIG Audit Report Number 00-05)


Leonard G. Birnbaum and Company, under contract to the Office of the Inspector General, audited
the amounts claimed by the Health Association of Niagra County, Inc. under Grant Numbers
34OAl67JOl & 02; 339AO4lfl6 & 17; and 336AOl5Il7 & 18. The audit covered the costs
($1,3 17,689 in total: $147,295, $502,442, and $667,952 respectively) claimed during the period from
April 1, 1997 to June 30, 1999 and included tests to determine whether costs reported to the
Corporation were documented and allowable in accordance with the terms and conditions of the
grants. We have reviewed the report and work papers supporting its conclusions and agree with the
findings and recommendations presented.

The report questions costs totaling $22,085 (less than two percent of total claimed costs), primarily
because the Health Association ofNiagra County, Inc. (HANCI) did not have an after-the-fact labor
distribution system to charge an employee's time who worked on two separate programs. The report
also cited several compliance issues including:

           HANCI did not obtain the necessary prior approval from the Corporation before making
           budget revisions on the RSVP program;

           Federal Cash Transactions Reports (FCTRs) for the SCP program were not always
           submitted on a timely basis; and

           HANCI did not submit all progress reports for the RSVP program on a timely basis.

In addition to the audit of claimed costs, Leonard G. Birnbaum and Company evaluated the
monitoring and oversight of these grants by the Corporation. The auditors reported that oversight
and monitoring procedures performed by Corporation staff included:

           reviewing and analyzing financial information and progress reports submitted by
           HANCI;

           providing periodic training sessions to HANCI staff during statewide and regional
           conferences; and

           performing periodic site visits.

However, the auditors found that improvements should be made in the Corporation's guidance
regarding documenting the procedures performed or areas addressed during a site visit to a grantee,


                                                                                        Inspector General
                                                                                        1201 New York Avenue, NW
                                                                                        Washington, DC 20.525
and in the Corporation's policies for ensuring that program personnel are complying with grant
monitoring guidance.

We provided a draft of this report to HANCI and the Corporation for National and Community
Service. HANCI's response to a draft of this report is included as Appendix A. In its response,
HANCI generally agreed with the audit findings. The Corporation's response is included as
Appendix B. In its response, the Corporation stated that it had reviewed the draft but had no
comments at this time.
                                Ofice of the Inspector General
                       Corporation for National and Community Service
                      Audit of Health Association of Niagara County, Inc.
             Grant Numbers 340A167101 & 02; 339A041116 & 17; 336A015117 & 18

                                                 Table of Contents

                                                                                                           w
REPORT SUMMARY AND HIGHLIGHTS:


        Summary of Audit Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   5


INDEPENDENT AUDITOR'S REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   10


FINANCIAL SCHEDULES :

        Exhibit A - Schedule of Award Costs by Program . . . . . . . . . . . . . . . . . .                 13

        Schedule A-1 - Schedule of Award Costs:
              Retired and Senior Volunteer Program . . . . . . . . . . . . . . . . . . . . .               14

        Schedule A-2 - Schedule of Award Costs:
              Foster Grandparent Program . . . . . . . . . . . . . . . . . . . . . . . . . . . .           16

        Schedule A-3 - Schedule of Award Costs:
              Senior Companion Program . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           18



INDEPENDENT AUDITOR'S REPORTS ON COMPLIANCE AND
 INTERNAL CONTROLS:

        Independent Auditor's Report on Compliance . . . . . . . . . . . . . . . . . . . . . .             21

                  Finding No. 1 - HANCI did not obtain the necessary prior
                  approval from the Corporation before making budget revisions
                  on the RSVP program. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   22
                            Office of the Inspector General
                   Corporation for National and Community Service
                  Audit of Health Association of Niagara County, Inc.
         Grant Numbers 340A167101 & 02; 339A041116 & 17; 336A015117 & 18


             Finding No. 2 - Stipend payments to SCP volunteers were not
             always limited to 1,044 hours per year. . . . . . . . . . . . . . . . . . . . . . .

             Finding No. 3 - HANCI did not ensure that all RSVP and FGP
             volunteers signed an enrollment form or designated a beneficiary
             on the enrollment form. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

             Finding No. 4 - Documents describing HANCI's RSVP, FGP
             and SCP programs neither stated the percentage of the total cost
             of the program financed with Corporation funds nor the
             dollar amount of Corporation funds for the program. . . . . . . . . . . .

             Finding No. 5 - Federal Cash Transactions Reports (FCTRs) for
             the SCP program were not always submitted on a timely basis. . .

             Finding No. 6 - HANCI did not submit all progress reports for
             the RSVP program on a timely basis. . . . . . . . . . . . . . . . . . . . . .


    Independent Auditor's Report on Internal Controls . . . . . . . . . . . . . . . . . . .

             Finding No. 1 - HANCI did not have an after-the-fact labor
             distribution system to charge employees' time if the employee
             did not work exclusively on a program. . . . . . . . . . . . . . . . . . . .


APPENDICES

    Appendix A - HANCI's Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

    Appendix B - The Corporation's Response . . . . . . . . . . . . . . . . . . . . . . . . .
REPORT SUMMARY AND HIGHLJGHTS
                                         LEONARD G . BIRNBAUM                                       AND     COMPANY
                                                         CERTIFIED         PUBLIC         ACCOUNTANTS
                                                                     WASHINGTON OFFICE

                                                                    6 2 8 5 FRANCONIA ROAD

                                                                    A L E X A N D R I A . VA 2 2 3 1 0



                                                                          (703) 9 2 2 - 7 6 2 2
                                                                      F A X (703) 9 2 2 - 8 2 5 6

LEONARD G      BIRNBAUM                                                                                                                     WASHINGTON, D.C
LESLIE A. LEIPER                                                                                                                          SUMMIT. N E W JERSEY
DAVID SAKOFS                                                                                                                             LOS ALTOS. C A L I F O R N I A
CAROL A    SCHNEIDER                                                                                                                     S A N DIEGO. C A L I F O R N I A


MEMBERS O F THE
AMERICAN INSTITUTE
     OF C P A ' S


          Inspector General
          Corporation for National and Community Service


          We performed an audit of the Health Association of Niagara County, Inc. (HANCI) covering the
          finds awarded by the Corporation for National and Community Service (Corporation) under the
          following grants and grant periods. In addition to the audit of amounts claimed by HANCI, we
          evaluated the Corporation's monitoring and oversight of these grants in order to identify specific
          procedures of the Corporation that could be improved regarding monitoring and oversight of these
          programs.

               Grant Program                                                      Grant No.                             Grant Period
          Retired and Senior Volunteer
            Program                                                      340A16710 1 & 02                      April 1, 1997 - March 3 1, 1999
          Foster Grandparent Program                                     339A041/16&17                         July1,1997-June30,1999
          Senior Companion Program                                       336A015117 & 18                       July 1, 1997 - June 30, 1999

          HANCI is a nonprofit organization located in Niagara, Falls, New York. HANCI established its
          Retired and Senior Volunteer Program (RSVP) and Foster Grandparent Program (FGP) in 1972 and
          its Senior Companion Program (SCP) in 198 1.

          The Corporation has awarded HANCI another year of hnding to continue the RSVP program until
          March 31,2000, and the FGP and SCP programs until June 30, 2000.

          Our audit of the costs claimed by HANCI under the above grants disclosed the following:

                                                                              RSVP                         FGP        SCP                Total
                    Award Budget                                             $147,295                    $524,824   $677,968           $1,350,087
                    Claimed Costs                                             147,295                     502,442    667,952            l,3 17,689
                    Questioned Costs                                               56                      21,061        968               22,085




                       M E M B E R O F T H E D I V I S I O N FOR C P A F I R M S , P R I V A T E C O M P A N I E S P R A C T I C E S E C T I O N
                                         A M E R I C A N INSTITUTE O F CERTIFIED P U B L I C ACCOUNTANTS
                               Ofice of the Inspector General
                      Corporation for National and Community Service
                     Audit of Health Association of Niagara County, Inc.
            Grant Numbers 340A167101 & 02; 339A041116 & 17; 336A015117 & 18


                              PURPOSE AND SCOPE OF AUDIT

The RSVP, FGP and SCP program grants are awarded under the authority of the Domestic Volunteer
Service Act of 1973, as amended (DVSA). The Corporation is responsible for monitoring grants in
order to reduce the risk that the grantees may be unable to properly manage, safeguard, and account
for grant fbnds in accordance with Federal law and grant provisions. Grant monitoring involves
overseeing a fbnded activity, obtaining information and data, and utilizing that information to make
assessments, provide feedback and recommend or take action.

In August 1998, a Corporation grant official requested that the Ofice of the Inspector General (OIG)
conduct an audit of the above-referenced grants awarded to HANCI. It had been alleged that
HANCI wrongfblly utilized AmeriCorps grant finds. The allegations centered on labor mischarging
and the utilization of equipment purchased under the AmeriCorps grant on activities unrelated to the
grant.

OIG informed the State of New York, Ofice of National and Community Service (NYONCS) of
the allegations. In response to the allegations, NYONCS contracted with a Certified Public
Accounting firm to perform a financial review of HANCI's AmeriCorps program. The financial
review performed at NYONCS' request disclosed several serious weaknesses in HANCI's financial
accounting for expenditures under the AmeriCorps grant. Specifically, the review disclosed that
approximately 22 percent of total expenditures had either no supporting documentation or inadequate
supporting documentation. Further, time sheets or other labor distribution records did not support
salaries and benefits charged to the grant. Finally, matching finds were not documented. As a result
of the financial review, NYONCS and HANCI reached a written agreement which included HANCI
not being reimbursed for questionable claims and termination of the ArneriCorps grant.

In light ofthe above, our audit of the claimed costs was designed to determine whether the conditions
cited in the financial review performed at NYONCS' request were present in the on-going DVSA
grants and whether the assertions made might be present in the DVSA programs. Specifically, the
objectives of our audit of the claimed costs were to determine whether:

               financial reports prepared by HANCI presented fairly the financial condition of the
               awards;

               the internal controls were adequate to safeguard Federal finds;

               the auditee had adequate procedures and controls to ensure compliance with Federal
               laws, applicable regulations and award conditions; and
Inspector General
Corporation for National and Community Service


               the award costs reported to the Corporation were documented and allowable in
               accordance with the award terms and conditions.

Because the allegations and the weaknesses concerning HANCI's ArneriCorps program could be a
systemic problem, i.e., occurring in all of HANCI's programs, we tested 100 percent of certain
categories of claimed costs on the RSVP, FGP and SCP programs. The cost categories tested 100
percent were Volunteer Support (staff travel, equipment, supplies, printing, space, contractual, audit
fee and postage) and Volunteer Expenses (insurance, uniforms, and recognition). Other costs were
tested on a judgmental sampling basis.

We performed the audit in accordance with generally accepted auditing standards, and Government
Auditing S t d a r d r (1994 Revision) issued by the Comptroller General of the United States. Those
standards required that we plan and perform the audit to obtain reasonable assurance about whether
the amounts claimed against the award, as presented in the schedule of award costs by program
(Exhibit A), are free of material misstatement. An audit includes examining, on a test basis, evidence
supporting the amounts and disclosures in Exhibit A. An audit also includes assessing the accounting
principles used and significant estimates made by the auditee, as well as evaluating the overall
financial schedule presentation. We believe our audit provides a reasonable basis for our opinion.

In addition to the audit of the claimed costs, we evaluated the Corporation's monitoring and oversight
of these grants in order to identi@ specific procedures of the Corporation that could be improved.
Our evaluation was performed at the Corporation's Ofice of Grants Management in Philadelphia,
PA; the Corporation's New York State Office in New York City; and HANC17soffices in Niagara
Falls, NY. Our evaluation was performed in accordance with Government Auditing Standarh. Our
procedures included the following:

                We reviewed the grant applications and grant awards to obtain an understanding of
                the programs.

                We reviewed the grant files maintained by the Corporation's Grants Officer and
                Program Oflker to obtain evidence of oversight and guidance provided by
                Corporation staff.

                We obtained and reviewed the Corporation's reference documents related to grant
                monitoring to determine the policies and procedures for monitoring grants awarded
                under the authority of DVSA.
Inspector General
Corporation for National and Community Service


       0      We conducted interviews with the Corporation's Grants Oficer in Philadelpia,
              Program Officer in Albany, New York, and Program Specialist in New York City and
              obtained documentation to substantiate information provided during the interviews
              to determine the type of guidance and/or oversight provided to HANCI.

              We conducted interviews with HANCI's management to gain an understanding of
              HANCI's perspective of the type of guidance and/or oversight provided by the
              Corporation.

We provided a draft of this report to Health Association of Niagara County, Inc and to Corporation
management. HANCI's response is included as Appendix A. In its response, HANCI generally
agreed with the findings and indicated the corrective action it would take to address the
recommendations. The Corporation's response is included as Appendix B. In its response, the
Corporation stated that it had reviewed the draft but had no specific comments.
Inspector General
Corporation for National and Community Service


                                SUMMARY OF AUDIT RESULTS

As a result of our audit of the aforementioned awards, we are questioning costs totaling $22,085 (less
than two percent of total claimed costs) which are summarized below and detailed in Exhibit A to the
Independent Auditor's report. Questioned costs are costs for which there is documentation that the
recorded costs were expended in violation of the law, regulations or specific conditions of the award,
or costs which require additional support by the grantee or which require interpretation of allowability
by the Corporation.

The following summarizes the costs questioned on the above awards:

                     Explanation                                                          Amount
    Salary and fringe benefit costs were not supported
       by labor distribution records

    Volunteers were paid in excess of the maximum
       allowable hours per annum

    Mathematical errors were made when computing the
       expense

    Claimed costs were incurred outside of the grant period                                      86

    Travel costs included unallowable mileage for the
       staffs commute tolfrom home

    Volunteer uniforms were purchased although hnding
       was not provided for in the grant award

    Claimed costs were not supported by adequate source
        documentation

    Claimed costs were charged to the wrong program                                              15

        Total Questioned Costs

Except as discussed above, we used a judgmental sampling method to test the costs claimed. Based
upon this sampling plan, questioned costs in this report may not represent total costs that may have
been questioned had all expenditures been tested. In addition, we have made no attempt to project
such costs to total expenditures incurred, based on the relationship of costs tested to total costs.
Inspector General
Corporation for National and Community Service



                                         COMPLIANCE

Our audit disclosed the following instances of noncompliance with Federal laws, applicable
regulations and award conditions:

   HANCI did not obtain the necessary prior approval from the Corporation before making budget
   revisions on the RSVP program. (Independent Auditor's Report on Compliance, Finding No. 1)

   Stipend payments to SCP volunteers were not always limited to 1,044 hours per year.
   (Independent Auditor's Report on Compliance, Finding No. 2)

   HANCI did not ensure that all RSVP and FGP volunteers signed an enrollment form or
   designated a beneficiary on the enrollment form. (Independent Auditor's Report on Compliance,
   Finding No. 3)

   Documents (i.e., pamphlets, brochures and press releases, describing HANCI's RSVP, FGP and
   SCP programs) neither stated the percentage of the total cost of the program financed with
   Corporation f h d s nor the dollar amount of Corporation hnds for the program as required.
   (Independent Auditor's Report on Compliance, Finding No. 4)

   Federal Cash Transactions Reports (FCTRs) for the SCP program were not always submitted on
   a timely basis. (Independent Auditor's Report on Compliance, Finding No. 5)

   HANCI did not submit all progress reports for the RSVP program on a timely basis. (Independent
   Auditor's Report on Compliance, Finding No. 6)


                                    INTERNAL CONTROLS

Our audit disclosed the following reportable condition in HANCI's internal controls.

    HANCI did not have an after-the-fact labor distribution system to charge employees' time if the
    employee did not work exclusively on a program. (Independent Auditor's Report on Internal
    Controls, Finding No. 1)
Inspector General
Corporation for National and Community Service


                     CORPORATION MONITORING AND OVERSIGHT

Our evaluation found that Corporation grant and program staff performed procedures to monitor and
oversee the National Senior Service Corps (NSSC) grants awarded to HANCI under the authority
of the Domestic Volunteer Service Act of 1973. Specifically, we found evidence of monitoring and
oversight activity that included:

       reviewing and analyzing financial information and progress reports submitted by HANCI;

       providing periodic training sessions to HANCI staff during statewide and regional
       conferences (fiscal training is provided to all grantees every two years); and

       performing periodic site visits (conducted by the Corporation's New York City program
       ofice).

However, in the area of site visits we found two areas where improvements should be made by the
Corporation. First, the Corporation's guidance related to site visits used by the program specialist
does not require that detailed documentation be maintained to provide evidence of the procedures
performed or areas addressed during a site visit. Second, the program specialist assigned
responsiblity for monitoring the HANCI grants was unaware of all of the Corporation's requirements
concerning the performance of site visits.

In late 1993, the Corporation implemented a new system for monitoring grants for NSSC programs.
The system is the Project Review and Redevelopment System (PRRS). PRRS provides guidance in
the form of a series of questions and activity that should be performed during a site visit. Separate
modules were developed covering: Community Impact; Technical Assistance/Program Development;
Representation; Project Administration; Volunteers; Fiscal Review; and Compliance.

Under PRRS, the project manager determines which module, modules or components of modules are
appropriate for the purpose of the site visit. The PRRS guidance states that "not every project needs
to be visited every year and the Compliance Review module needs only to be used once every three
years (in the absence of any surfaced compliance issue)." The guidance fhrther states: that the
completed modules are not a reporting document; the required letter to the grantee CEO is the formal
site visit report. As a result, the program specialist did not maintain documentation to support the
specific procedures performed at HANCI. Because of the lack of documentation for the specific
procedures performed during the site visits, Corporation management cannot determine whether its
policy is followed or whether the site visits were thorough.
Inspector General
Corporation for National and Community Service


We recommend that the Corporation State Offices ensure that the program officers and program
specialists for the NSSC projects are complying with its grant monitoring guidance. We hrther
recommend that the Corporation revise its policy requiring that the completed modules be retained
for a specific period of time of at least three years.


                                      REPORT RELEASE

This report is intended solely for use of the Ofice of the Inspector General, the Corporation For
National and Community Services, and HANCI management.
INDEPENDENT AUDITOR'S REPORT
                                     LEONARD G . BIRNBAUM                                      AND   COMPANY
                                                    CERTIFIED         PUBLIC         ACCOUNTANTS
                                                                WASHINGTON OFFICE

                                                               6285 FRANCONIA ROAD

                                                               A L E X A N D R I A . VA 2 2 3 1 0



                                                                     (703) 922-7622

                                                                 FAX (703) 9 2 2 - 8 2 5 6

LEONARD G. B I R N B A U M                                                                                                           WASHINGTON. D C
LESLIE A    LEIPER                                                                                                                 SUMMIT. NEW JERSEY
DAVID SAKOFS                                                                                                                      LOS ALTOS. C A L I F O R N I A
CAROL A     SCHNEIDER                                                                                                             SAN DIEGO. C A L I F O R N I A


MEMBERS O F THE
AMERICAN INSTITUTE
      OF CPA'S




        Inspector General
        Corporation for National and Community Service


                                              INDEPENDENT AUDITOR'S REPORT

        We have audited the costs claimed by Health Association of Niagara County, Inc. (HANCI) for the
        award numbers listed below. These costs, as presented in the schedule of award costs by program
        (Exhibit A), are the responsibility of HANC17smanagement. Our responsibility is to express an
        opinion on the Schedule of Award Costs based on our audit.

              Grant Program                                                 Grant No.                             Grant Period
         Retired and Senior Volunteer
           Program (RSVP)                                          340A167/01 & 02                    April 1,1997 - March 3 1, 1999
         Foster Grandparent Program (FGP)                          339AO4 1/16 & 17                   July 1, 1997 - June 30, 1999
         Senior Companion Program (SCP)                            336A015/17&18                      July1,1997-June30,1999

        We conducted our audit in accordance with generally accepted auditing standards, and Government
        Auditing S f a n k d s (1994 Revision), issued by the Comptroller General of the United States. Those
        standards require that we plan and perform the audit to obtain reasonable assurance about whether
        the financial schedules are free of material misstatement. An audit includes examining, on a test basis,
        evidence supporting the amounts and disclosures in the financial schedules. An audit also includes
        assessing the accounting principles used and significant estimates made by management, as well as
        evaluating the overall financial schedule presentation. We believe our audit provides a reasonable
        basis for our opinion.

           The accompanying financial schedules were prepared for the purpose of complying with the
           requirements of the award agreement as described in Note 1, and are not intended to be a complete
           presentation of financial position in conformity with generally accepted accounting principles.




                      MEMBER   O F T H E D I V I S I O N FOR CPA F I R M S . P R I V A T E C O M P A N I E S P R A C T I C E   SECTION
                                     A M E R I C A N I N S T I T U T E O F CERTIFIED P U B L I C A C C O U N T A N T S
Inspector General
Corporation for National and Community Service


In our opinion, except for $22,085 in questioned costs, the Schedule of Award Costs referred to
above presents fairly, in all material respects, the costs claimed for the period April'l, 1997 to June
30, 1999, in conformity with the award agreements.

This report is intended solely for use of the Ofice of the Inspector General, the Corporation For
National and Community Services, and HANCI management.


                                               Leonard G. Birnbaum and Company



Alexandria, Virginia
July 30, 1999
FINANCIAL SCHEDULES
                                                                                           Exhibit A

                        Health Association of Niagara County, Inc.
           Grant Numbers 340A167/01& 02,339A041116 & 17,336A015117 & 18
                                Schedule of Award Costs
                                      (by Program)



                                  Approved          Claimed         Questioned          Schedule
                                   Budget            Costs            Costs             Reference
Retired and Senior
 Volunteer Program               $ 147,295         $ 147,295        $        56            A- 1

Foster Grandparent Program           524,824          502,442           21,061             A-2

Senior Companion Program             677.968          667.952              968             A-3

      Total                       $1.350.087       $1.3 17.689      $   22.085




              The accompanying notes are an integral part of this financial schedule.
                                                                                       Schedule A- 1
                                                                                         Page 1 of 2

                         Health Association of Niagara County, Inc.
       Corporation for National and Community Service Award Nos. 340A167101 & 02
                            Retired and Senior Volunteer Program
                                  Schedule of Award Costs
                           From April 1, 1997 to March 3 1, 1999



                               Approved          Claimed        Questioned           Note
                               Budget             Costs            Costs           Reference

Volunteer Support Costs:
 Personnel Expenses            $    81,262
 Fringe Benefits                    15,777
 Staff Travel                        2,494
 Supplies                              860
 Communications                      2,900
 Printing                            2,700
 Space                               5,142
 Audit Fee                             600
 Postage                             1.620
Subtotal                           113,355

Volunteer Expenses:
  Insurance                         1,840
  Travel                           27,900
  Recognition                       4.200
Subtotal                           33,940

CORPORATION FUNDS                  147,295

MATCHING FUNDS                     77.097

TOTAL FUNDS                    $ 224.392




             The accompanying notes are an integral part of this financial schedule.


                                               14
                                                                                Schedule A-1
                                                                                  Page 2 of 2

                        Health Association of Niagara County, Inc.
     Corporation for National and Community Service Grant Number 340A167101 & 02
                          Retired and Senior Volunteer Program
                             Explanation of Questioned Costs


1.   Staff Travel

     Travel costs claimed for HANCI staff included payment for mileage between the employee's
     home and duty station which resulted in reimbursement in the amount $56 which is contrary
     to HANCI's staff travel policy. Accordingly, we have questioned this amount.
                                                                                       Schedule A-2
                                                                                         Page 1 of 2

                         Health Association of Niagara County, Inc.
       Corporation for National and Community Service Award Nos. 339A041116 & 17
                                 Foster Grandparent Program
                                  Schedule of Award Costs
                             From July 1, 1997 to June 30, 1999



                               Approved             Claimed     Questioned               Note
     Cost Category             Budaet                Costs       Costs                 Reference

Volunteer Support Costs:
 Personnel Expenses            $   85,021       $     82,734     $    18,288               1
 Fringe Benefits                   19,820             16,207           2,743               2
 Staff Travel                       2,578              1,577              24               3
 Equipment                          4,883              4,256
 Supplies                             938                626
 Contractual                        1,656                859
 Communications                     3,722              3,488
 Printing                           l,3 10             1,097               6               4
 Space                              3,605              3,666
 Postage                               -               1.054
Subtotal                                             115,564

Volunteer Expenses:
 Stipends                                            340,427
 Insurance                                                62
 Travel                                               43,919
 Recognition                                           2.470
Subtotal                                             386,878

CORPORATION FUNDS                                    502,442

MATCHING FUNDS                                       124,229

TOTAL FUNDS                                     $ 626.671




             The accompanying notes are an integral part of this financial schedule.


                                               16
                                                                                      Schedule A-2
                                                                                        Page 2 of 2

                        Health Association of Niagara County, Inc.
     Corporation for National and Community Service Grant Number 339A041116 & 17
                                Foster Grandparent Program
                              Explanation of Questioned Costs

1.   Personnel

     Special Condition No. 10 of the Notice of Grant Award and OMB Circular A-122, Cost
     Principles for NOII-Projt Orgm~izntioizs,require that salaries and wages be supported by
     labor distribution records if the employee's time is divided among more than one program or
     function of the organization. OMB Circular A-122 further clarifies the requirements by
     stating that the labor distribution records "must reflect an after-the-fact determination of the
     actual activity of each employee. Budget estimates (i.e., estimates determined before the
     services are performed) do not qualifL as support for charges to awards." A program
     assistant shared her time between the Foster Grandparent program (FGP) and the Senior
     Companion Program (SCP). However, instead of preparing a labor distribution report which
     accurately reflects the amount of time spent on each program as required, each program was
     routinely charged 50 percent of the program assistant's labor costs irrespective of the actual
     number of hours expended on each program. On the FGP program, the labor costs were
     charged against Corporation funds. The amount charged to the SCP program was recorded
     as matching since the grant award did not provide funding for this position. Given the lack
     of labor distribution records and the fact that the FGP program is essentially inactive during
     the summer months, we have questioned the entire amount ($18,288) charged to the FGP
     program. We have not, however, questioned the amount claimed on the SCP program as
     matching since HANCI exceeded its matching requirement by more than this amount.

2.   Fringe Benefits

     As a result of the questioned personnel costs, we have questioned $2,743 of the associated
     fringe benefits.

3.   Staff Travel

     We have questioned $24 of the amount claimed for staff travel. Of this amount, $2 represents
     a mathematical error on a travel voucher and $22 represents expenses that were claimed
     outside of the grant period.

4.   Printing

     We have questioned $6 resulting from a mathematical error made when computing the
     expense.
                                                                                   Schedule A-3
                                                                                     Page 1 of 2

                         Health Association of Niagara County, Inc.
       Corporation for National and Community Service Award Nos. 336A015117 & 18
                                 Senior Companion Program
                                  Schedule of Award Costs
                             From July 1, 1997 to June 30, 1999



                               Approved          Claimed         Questioned          Note
                              Budget           Costs               Costs           Reference

Volunteer Support Costs:
       Personnel Expenses     $ 133,551         $ 127,591
       Fringe Benefits             17,372            20,838
       Staff Travel                 2,400             2,705
       Supplies                       300               879
       Contractual                    400                -
       Communications               1,200             1,100
       Printing                     1,800             1,080
       Space                        3,672             3,672
       Postage                         -              1.215
Subtotal                                            159,080

Volunteer Expenses:
       Stipends                                     464,746
       Insurance                                      1,260
       Travel                                        40,908
       Recognition                                    1.958
Subtotal                                            508,872

CORPORATION FUNDS                                   667,952

MATCHING FUNDS                                      21 1.1 12

TOTAL FUNDS                                     $ 879.064




             The accompanying notes are an integral part of this financial schedule.


                                               18
                                                                              Schedule A-3
                                                                                Page 2 of 2

                   Health Association of Niagara County, Inc.
Corporation for National and Community Service Grant Number 336A015117 & 18
                           Senior Companion Program
                         Explanation of Questioned Costs



Staff Travel

We have questioned $85 of the amount claimed for staff travel. Of this amount, $64
represents costs incurred outside the grant period, $15 represents costs charged to the wrong
program and $6 represents costs claimed for mileage for the employee to commute between
home and duty station which is contrary to HANCI's staff ravel policy.

Spplies

We have questioned $1 13 of the amount claimed for supplies Of this amount, $59 represents
the purchase of uniforms. Funding for the purchase of uniforms was not provided in the grant
award. The remaining amount of $54 was not supported by adequate documentation.



We have questioned $168 resulting from a mathematical error made when computing the
expense.

Stipends

We have questioned $602 claimed for stipends that were paid for hours served in excess of
maximum 1,044 hours per annum. The Corporation regulations (Paragraph a of Section 34,
Direct Benefits Detailed, of the SCP Operations Handbook) limit volunteers to an annual
stipend based on 1,044 hours of service annually. For complete details, refer to Finding No.
2 of the Independent Auditor's Report on Compliance.
  INDEPENDENT AUDITOR'S REPORTS

               -
               ON

COMPLIANCE AND INTERNAL CONTROLS
                                        LEONARD G . BIRNBAUM                                           AND   COMPANY
                                                         CERTIFIED         PUBLIC          ACCOUNTANTS
                                                                     WASHINGTON OFFICE

                                                                    6285 FRANCONIA ROAD

                                                                    A L E X A N D R I A . VA 2 2 3 1 0



                                                                          (703) 922-7622

                                                                      FAX. ( 7 0 3 ) 9 2 2 - 8 2 5 6
LEONARD          G. B I R N B A U M                                                                                                        WASHINGTON. D C
L E S L I E A.   LEIPER                                                                                                                  SUMMIT. N E W JERSEY
D A V I D SAKOFS                                                                                                                        L O S ALTOS. C A L I F O R N I A
C A R O L A. S C H N E I D E R                                                                                                          SAN DIEGO, CALIFORNIA


MEMBERS O F THE
AMERICAN          INSTITUTE
        OF CPA'S




             Inspector General
             Corporation for National and Community Service


                                      INDEPENDENT AUDITOR'S REPORT ON COMPLIANCE

             We have audited the schedule of award costs by program, as presented in Exhibit A, which
             summarizes the claimed costs of the Health Association of Niagara County, Inc. (HANCI) under the
             Corporation for National and Community Service (Corporation) awards listed below, and have issued
             our report thereon dated July 30, 1999.

                  Grant Program                                                   Grant No.                               Grant Period
             Retired and Senior Volunteer
               Program (RSVP)                                            340A167101 & 02                      April 1, 1997 - March 3 1, 1999
             Foster Grandparent Program (FGP)                            339AO4 1/16 & 17                     July 1, 1997 - June 30, 1999
             Senior Companion Program (SCP)                              336A015/17&18                        July1,1997-June30,1999

             We conducted our audit in accordance with generally accepted auditing standards, and Government
             Auditing Stardrrds (1 994 Revision), issued by the Comptroller General of the United States. Those
             standards require that we plan and perform the audit to obtain reasonable assurance about whether
             the financial schedules are free of material misstatement.

             Compliance with laws, regulations, and the provisions of the award is the responsibility of HANCI's
             management. As part of obtaining reasonable assurance about whether the financial schedules are
             free of material misstatement, we performed tests of compliance with certain provisions of laws,
             regulations, and the terms and conditions of the award. However, our objective was not to provide
             an opinion on overall compliance with such provisions. Accordingly, we do not express such an
             opinion.




                            MEMBER OF   T H E D I V I S I O N F O R CPA F I R M S . P R I V A T E C O M P A N I E S P R A C T I C E   SECTION
                                        AMERICAN INSTITUTE OF CERTIFIED PUBLIC ACCOUNTANTS
Inspector General
Corporation for National and Community Service


Instances of noncompliance are failures to follow requirements, or violations of prohibitions,
contained in statutes, regulations, and the provisions of the award. The results of our tests of
compliance disclosed the following instances of noncompliance:

Findinn No. 1

HANCI did not obtain the necessary prior approval from the Corporation before making budget
revisions on the RSVP program. Corporation regulations (Section 23, Budget Revisions, of the
Grants Management Handbook for Grantees) require that grantees obtain prior approval for budget
revisions whenever "funds budgeted for volunteer allowances (direct payments or benefits to
volunteers) are to be transferred to other categories of expense." According to the Notice of Grant
Awards for the period of audit, Federal hnds awarded to HANCI totaled $147,295 with $33,940 and
$1 13,355 budgeted for Volunteer Expenses and Volunteer Support Costs, respectively. While
HANCI reported that it expended the total amount of the Federal funds awarded, only $29,766 was
claimed for Volunteer Expenses which is $4,174 less than the budgeted amount. The $4,174 was
expended for Volunteer Support Costs (i.e., personnel and fringe benefits, communications) which
are not direct payments or benefits to volunteers.

Recommendation

We recommend that HANCI implement policies and procedures to obtain prior approval from the
Corporation for required budget revisions.

Finding No. 2

Stipend payments to SCP volunteers were not always limited to 1,044 hours per year as required.
Corporation regulations (Paragraph a of Section 34, Direct Benefits Detailed, of the SCP Operations
Handbook) limit volunteers to an annual stipend based on 1,044 hours of service annually. Of the
stipend payments made to 40 volunteers of the SCP program, we noted that 6 of the volunteers had
been paid for hours in excess of 1,044 per annum. 80 percent of the excess stipend payments were
claimed against the Corporation's grants. Accordingly, we have questioned the excess amount paid
with Corporation funds.

Recommendation

We recommend that HANCI implement policies and procedures to monitor the number of service
hours performed by the volunteers and limit stipend payments to 1,044 hours per year.
Inspector General
Corporation for National and Community Service


Finding No. 3

HANCI did not ensure that all RSVP and FGP volunteers signed an enrollment form or designated
a beneficiary on the enrollment form. Corporation regulations (Section 23, Enrollment of Foster
Grandparents, and Section 28, Enrollment of RSVP Volunteers, of the respective Operations
Handbook) for each program require that the volunteer sign an enrollment form that includes a
designation of beneficiary. Our testing of 20 enrollment forms for each grant year of each program
(a total of 40 for each program) disclosed the following number of exceptions to this requirement.

                                           Enrollment Form                     Beneficiary
       Program                                Not Siyed                       Not Designated

       RSVP                                        1                                  I

       FGP

Recommendation

We recommend that HANCI implement policies and procedures to review the enrollment forms of
volunteers to ensure that all of the necessary information, including beneficiary designation and
volunteer signature, has been completed on the enrollment forms.

Finding No. 4

Documents (i.e., pamphlets, brochures and press releases, describing HANCI's RSVP, FGP and SCP
programs) neither stated the percentage of the total cost of the program financed with Corporation
hnds nor the dollar amount of Corporation funds for the program. The Notice of Grant Award for
each program stipulated that "when issuing statements, press releases, requests for proposals, bid
solicitations, annual reports and other documents describing projects or programs funded in whole
or in part with Federal Corporation money, the grantee receiving Federal funds, including but not
limited to state and local governments, shall clearly state (1) the percentage of the total cost of the
project or program which will be financed with Federal Corporation money, and (2) the dollar amount
of Federal Corporation funds for the project or program" (Grant Special Condition No. 8). While
HANCI produced a variety of documents that reference the RSVP, SCP, and FGP programs as being
supported in part by Corporation funds, none of the documents included the percentage of the total
cost ofthe programs financed with Corporation funds or the dollar amount of Corporation hnds for
the programs as required.
Inspector General
Corporation for National and Community Service


Recommendation

We recommend that HANCI implement policies and procedures to ensure that all documents
describing projects or programs funded in whole or in part with Corporation finds contain the
required information concerning funding of the programs.

Finding No. 5

Federal Cash Transactions Reports (FCTRs) for the SCP program were not always submitted on a
timely basis. The Notice of Grant Award stipulated that FCTRs were to be submitted on a quarterly
basis within 15 days afier the end of the quarter if the grantee's monthly advances were or projected
to be $25,000 or more (Grant Special Condition No. 9). Under this stipulation HANCI was required
to submit eight FCTRs for the SCP program during the audit period. While HANCI submitted the
required number of FCTRs, two of the FCTRs were submitted approximately 15 days afier the due
date.

Recommendation

We recommend that HANCI implement policies and procedures to submit all required FCTRs on a
timely basis.

Finding No. 6

HANCI did not subnut all progress reports for the RSVP program on a timely basis. The Notice of
Grant Award stipulated that progress reports were to be prepared on a quarterly basis and submitted
within 30 days afier the end of the quarter (Grant Special Condition No. 14). Our review of the
progress reports received by the Program Ofice disclosed that the progress report for the quarter
ended September 30, 1998, was submitted approximately ten days late.

Recommendation

We recommend that HANCI implement policies and procedures to submit progress reports on a
timely basis.

Except as described above, the results of our tests of compliance indicate that, with respect to the
items tested, the grantee has complied in all material respects with the provisions referred to in the
third paragraph of this report. We considered these instances of noncompliance in forming our
opinion on whether the Schedule of Award Costs (Exhibit A) is presented fairly in all material
respects, in conformity with Corporation policies and procedures, and this report does not affect our
report dated July 30, 1999, on this financial schedule.
Inspector General
Corporation for National and Community Service



This report is intended solely for use of the Ofice of the Inspector General, the Corporation For
National and Community Services, and HANCI management.



                                            Leonard G. Birnbaum and Company

Alexandria, Virginia
July 30, 1999
                                           LEONARD G . BIRNBAUM                               AND   COMPANY
                                                       CERTIFIED     PUBLIC         ACCOUNTANTS

                                                               WASHINGTON OFFICE

                                                              6 2 8 5 F R A N C O N I A ROAD

                                                              A L E X A N D R I A , VA 2 2 3 1 0



                                                                    (703) 922-7622

                                                                FAX' (703) 922-8256

L E O N A R D G. B I R N B A U M                                                                                           WASHINGTON. D C
L E S L I E A.   LEIPER                                                                                                  S U M M I T . NEW JERSEY
DAVID SAKOFS                                                                                                            L O S ALTOS. C A L I F O R N I A
C A R O L A.     SCHNEIDER                                                                                              SAN DIEGO, C A L I F O R N I A


M E M B E R S OF T H E
AMERICAN         INSTITUTE
        OF CPA'S




            Inspector General
            Corporation for National and Community Service


                                   INDEPENDENT AUDITOR'S REPORT ON INTERNAL CONTROLS

            We have audited the schedule of award costs by program, as presented in Exhibit A, which
            summarizes the claimed costs ofthe Health Association of Niagara County, Inc. (HANCI) under the
            Corporation for National and Community Service (Corporation) awards listed below, and have issued
            our report thereon dated July 30, 1999.

                 Grant Program                                             Grant No.                         Grant Period
            Retired and Senior Volunteer
              Program (RSVP)                                       340A167101 & 02                   April 1, 1997 - March 3 1, 1999
            Foster Grandparent Program (FGP)                       339AO4 1116 & 17                  July 1, 1997 - June 30, 1999
            Senior Companion Program (SCP)                         336A015/17&18                     July1,1997-June30,1999

            We conducted our audit in accordance with generally accepted auditing standards, and Government
            Auditing Stand& (1994 Revision), issued by the Comptroller General of the United States. Those
            standards require that we plan and perform the audit to obtain reasonable assurance about whether
            the financial schedules are free of material misstatement.

            HANCI's management is responsible for establishing and maintaining internal controls. In fblfilling
            this responsibility, estimates and judgments by management are required to assess the expected
            benefits and related costs of internal control policies and procedures. The objective of internal
            controls is to provide management with reasonable, but not absolute, assurance that assets are
            safeguarded against loss from unauthorized use or disposition, and that transactions are executed in
            accordance with management's authorization and recorded properly to permit the preparation of
            financial schedules in accordance with generally accepted accounting principles. Because of inherent
            limitations in any internal controls, errors or irregularities may nevertheless occur and not be detected.




                          MEMBER      OF   T H E DIVISION FOR CPA FIRMS, PRIVATE C O M P A N I E S PRACTICE          SECTION
                                           AMERICAN INSTITUTE O F CERTIFIED PUBLIC ACCOUNTANTS
Inspector General
Corporation for National and Community Service


Also, projection of any evaluation of the internal controls to future periods is subject to the risk that
procedures may become inadequate because of changes in conditions or that the effectiveness of the
design and operation of policies and procedures may deteriorate.

In planning and performing our audit of the Schedule of Award Costs (Exhibit A) we obtained an
understanding of the internal controls. With respect to the internal controls, we obtained an
understanding of the design of relevant policies and procedures and whether they have been placed
in operation, and we assessed control risk in order to determine our auditing procedures for the
purpose of expressing our opinion on the financial schedules and not to provide an opinion on the
internal controls. Accordingly, we do not express such an opinion.

We noted a matter involving internal controls that we consider to be a reportable condition under
standards established by the American Institute of Certified Public Accountants. Reportable
conditions involve matters coming to our attention relating to significant deficiencies in the design
or operation of internal controls that, in our judgement, could adversely affect the entity's ability to
record, process, summarize and report financial data in a manner that is consistent with the assertions
of management in the financial schedules.

Finding No. 1

HANCI did not have an after-the-fact labor distribution system to charge employees' time if the
employee did not work exclusively on a single grant program. The Notice of Grant Award stipulated
that "Salaries and wages charged to the grant must be supported by signed time and attendance
records for each individual employee, regardless of position, and by documented payrolls approved
by a responsible official of the grantee. Salaries and wages chargeable between the grant and other
programs or finctions of the grantee organization must be supported by individual time distribution
records" (Grant Special Condition No. 10). One employee divided her time between the FGP and
SCP programs. Each program was charged a predetermined 50 percent of this employee's time
irrespective of the actual number of hours expended on each program.

Recommendation

We recommend that HANCI implement an after-the-fact labor distribution system for all employees
that work on multiple programs or activities.

A material weakness is a condition in which the design or operation of the specific internal control
element does not reduce to a relatively low level the risk that errors or irregularities in amounts that
would be material in relation to the financial schedules being audited may occur and not be detected
within a timely period by employees in the normal course of performing their assigned functions.
Inspector General
Corporation for National and Community Service


Our consideration of the internal controls would not necessarily disclose all matters in the internal
controls that might be reportable conditions and, accordingly, would not necessarily disclose all
reportable conditions that are also considered to be material weaknesses as defined above. However,
we do not believe the reportable condition described above is a material weakness.

This report is intended solely for use of the Ofice of the Inspector General, the Corporation For
National and Community Services, and HANCI management.




                                              Leonard G. Birnbaum and Company

Alexandria, Virginia
July 30, 1999
                    Appendix A


Health Association of Ningara County, Inc.'s Response
                             Health Association                                       of Niagara County, Inc.
                             1302 Main Street               18 Market Street          84 Sweeney Street
                             Niagara Falls, NY 14301-1193   Lockport, NY 14094-2934   North Tonawanda, NY 14120-5822
                             (716) 285-8224                 (716) 433-2664            (7 16) 692-4855
                             Home Care Fax 285-9689         Fax 433-293 1             Fax 692-25 1 1

             .
     Home Care               General Fax 285-8232

       Adult
  Day Care Centers
             0


  Intergenerational           November 1 1,1999
Child Learning Centers
             0



     Council on               Mr. Leslie A. Leiper
       Aging                  Leonard G. Birnbaum and Company, LLP
             0                Certified Public Accountants
       Foster                 Washington Office
     Grandparent              6285 Franconia Road
      Program                 Alexandria, VA 223 10-2510
             0


  Retired and Senior
       Volunteer
                              Dear Mr. Leiper:
       Program
              .                                RE:     Draft audit report
       Senior
     Companion                                         Corporation for National and Community Service
      Program                                          Service Grant Numbers: 34OAl67/Ol & 02
              0                                                                339A041/16 & 17
        Title V                                                                336AOlYl7 & 18
  Senior Employment
              0
                              Enclosed please find our comments on the draft report findings and
Elder Abuse Prevention,       recommendations dated October 15, 1999.
       Education,
    Counseling and
   Respite Program
                              If you should have any questions, please do not hesitate to contact me at
                 0
                              (7 16)285-8224.
   Meals on Wheels
      Lockport
                 .            Sincerely,
     Look Good ...
      Feel Better
    (With American
    Cancer Society)
                 0


    HANCI's Breast
    Health Initiative
                               Dr. hen$. Elia
                 0
                               Executive Director
   Speaker's Bureau




  Email: hanci @a01            cc:     Kevin Dafoe, HANCI Controller
Website: www.hanci.cor

                                           Serving the Niagara Frontier. . .
            @
       A Unlted Way Agency
                         Independent Auditor's Report
                                     On
                                 Compliance
find in^ No. 1 (page 23)
Effective immediately, HANCI will obtain prior approval from the Corporation for
required budget revisions.


Finding No. 2 (page 23)
Procedures will be implemented which will monitor the number of service hours
performed by volunteers and limit payment to 1044 hours per year. Many unique client
situations presented a need for a few hours of additional service during the monitoring
period.


Finding No. 3 (page 24)
The Foster Grandparent Program / Retired Senior Volunteer Program volunteers who
neglected to designate a beneficiary has since designated.

The Program Directors and staff will closely review all beneficiary and enrollment forms
before being filed in the volunteer's permanent file.

The Foster Grandparent Program has redesigned the program enrollment (application)
form to provide a specific line for the signature of all applicants.


Finding No. 4 (page 25)
Corporation funded programs will include the percentage of the total cost of the program
funded and dollar amount of Federal Corporation funds on future press releases,
brochures, etc. along with the listing of all the program's funding sources.


Finding No. 5 (page 25)
Since HANCI has three (3) grants awarded by the Corporation for National and
Community Service, we have always submitted all financial reports (FCTRs and FSRs)
within 30 days after the end of the quarter. The Corporation has never informed us that
this was untimely. Effective immediately, the Senior Companion Program FCTRs and
FSRs will be submitted on a quarterly basis within 15 days after the end of the quarter.


Finding No. 6 (page 26)
The Retired Senior Volunteer Program will submit progress reports on a timely basis.
              Independent auditors Report on Internal Controls
Findine No. 1 (page 29)
Following an in-depth study, an after-the-fact labor distribution system will be instituted.
The time sheet will show the distribution of hours of each program when staff time is
shared with another program.

HANCI will also research other Corporation programs with shared staff for appropriate
established procedures.

After many years of consultation with other Corporation program directors, site visits
and government audits, HANCI was never instructed to implement an after-the-fact labor
distribution system for the one employee that worked on multiple programs or activities.
Per the recommendation of this audit, we will immediately implement this procedure
beginning January 1,2000.
     Appendix B


Corporation's Response
                                                                                                       CORPORATION

                                                                                                       FOR NATIONAL



November 15, 1999

MEMORANDUM
TO           : Luise Tardzn,

FROM                                              Service Center
                           d


SUBJECT       : OIG Draft Report 00-05 - Audit of Corporation for National Service Grant No.
                340A167/01$02, No. 339A041116 & 17 and No. 336A015117 & 18 with the Health
                Association of Niagara County, Inc

Thank you for the opportunity to review the draft audit of subject grantee and related specific grants. We
have reviewed the draft audit report and do not have specific comments at this time. We will address the
findings and recommendations in the final management decision.




CC:Wendy Zerikcr, COO
   Ma1 Coles, Atlantic Area Manager
   Donna Smith, SPD New York




                                                                                                       801 Arch Strret
                                                                                                       Suite 1103
                                                                                                       Philadelphi PA 19107-2416
                                                                                                       Tekphone 215-597-9972
                                                                                                       Fax 215-597-4933


                                                                                                       Cati* 'lhings Done.
                                                                                                       Amencorps. National Service
                                                                                                       Learn and Serve America
                                                                                                       Nalional Senior Service Corps
